 STUDY OF METAL/NONMETAL MINING
  ENFORCEMENT AND COMPLIANCE
   ASSISTANCE ACTIVITIES, 1983-2000




MINE SAFETY AND HEALTH ADMINISTRATION




                  REPORT NO.:    2E-06-620-0003
                 DATE ISSUED:    SEPTEMBER 26, 2001
                                               TABLE OF CONTENTS


ACRONYMS AND GLOSSARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE, SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

FINDINGS AND RECOMMENDATIONS

          Finding A – Enforcement and Compliance Assistance Activities Require Greater
                      Coordination and Planning . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

                    Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

          Finding B – Proactive Approaches to Enforcement and Compliance Assistance
                       Activities Help Prevent Injuries/Fatalities . . . . . . . . . . . . . . . . . . . . . . . . . 13

                    Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

          Finding C – Characteristics of Enforcement and Compliance Assistance Activities
                       Create Substantial Tradeoffs Among Inspector's Duties . . . . . . . . . . . . . . 16

                    Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

APPENDICES

          Appendix A - Enforcement and Compliance Assistance Activity
                        Codes and Descriptions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

          Appendix B - Technical/Methodological Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

          Appendix C - Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33




                                                                 i
                                  ACRONYMS AND GLOSSARY


 ACRONYMS

BNA                           -      Bureau of National Affairs

DOL                           -      Department of Labor

GAO                           -      General Accounting Office

GPRA                          -      Government Performance and Results Act

M/NM                          -      Metal/Nonmetal

MSHA                          -      Mine Safety and Health Administration

NFDL                          -      Non-Fatal Days Lost

OIG                           -      Office of Inspector General



 GLOSSARY

Factor Analysis - Statistical procedure for uncovering a (usually) smaller number of unobserved
       variables by studying the covariation among a set of observed variables.

Kernel Density Diagram - A graph that shows the ordered items from the data plotted on their
      "density of occurrence." This technique allows for a visual inspection of the distribution
      of a variable.

Locally Weighted Scatterplot Smoothing - Technique that allows a researcher to fit a smooth
       curve to the data without specifying the shape of the curve beforehand; permits
       identification of trends based on data rather than assumptions.

Partial Regression Plot - A graph of the independent effect (holding all other variables constant)
       of an independent variable on a dependent variable in a multiple regression equation.

Pearson's Correlation Coefficient - Statistic that measures the strength and direction of the
      linear correlation between two variables.




                                                ii
Principal Components Analysis - A method for summarizing and simplifying the correlation
       structure in multivariate data through mathematic models and production of composite
       variables.

Regression Analysis - Calculation of a number of statistics that examine the relationship between
      two or more variables; allows the development of a linear model for predicting the
      dependent variable from one or more independent variables, and allows measurement of
      the accuracy of predictions made using the model.

Reliability Analysis - Method of assessing whether a summated rating scale will produce the
       same results in repeat applications; measures the proportion of total variability accounted
       for by the trait we are trying to measure.

Scatter Plot - Graphing technique in which the coordinates of two variables are plotted for each
       case in a distribution to permit visual representation of the relationship between the
       variables.

Summated Rating Scale - A data reduction method that is created by collapsing across columns
    of a data matrix and taking a measure of central tendency in each row, producing a
    summary score for each observation.




                                                iii
                                     EXECUTIVE SUMMARY

The Mine Safety and Health Administration (MSHA), in partnership with the American mining
community, works to eliminate fatalities, reduce the frequency and severity of accidents, and
minimize health hazards associated with the mining industry in accordance with the Federal Mine
Safety and Health Act of 1977 (the Mine Act).

As part of a prior evaluation,1 MSHA M/NM provided the Office of Inspector General (OIG)
with data on the performance of enforcement activities. Specifically, MSHA M/NM provided
information that indicated declining completion levels of regular inspections. In addition, GAO
performed three evaluations between 1985-1987 that specifically addressed regular inspection
shortfalls. The combination of current shortfalls and prior GAO evaluations prompted the OIG to
reevaluate MSHA M/NM’s enforcement activities.

 RESULTS OF STUDY

Analysis of the information and data we reviewed demonstrates that MSHA M/NM enforcement
and compliance assistance activity is more complex than generally perceived. M/NM inspectors
are responsible for performing over twenty-five types of enforcement/compliance assistance
activities. This significant breadth of responsibility, combined with rapid growth in mine
operations, reductions in the size of the inspectorate, and shifts in public policy orientation inhibits
full performance of statutory duties. However, based on the number and scope of M/NM
enforcement and compliance assistance activities, we identified three areas where MSHA M/NM
can strengthen its ability to enhance miner safety. Those areas are identified below.

FINDING A – Enforcement and Compliance Assistance Activities Require Greater
            Coordination and Planning

MSHA M/NM engages in more than twenty-five enforcement and compliance assistance
activities, both statutory and non-statutory. We found that M/NM programs require greater
integration and coordination in order to fulfill MSHA's overall "safety mission." MSHA M/NM
should improve guidance to district offices regarding program implementation and operation to
enhance consistency in program performance and management. In addition, the passage of GPRA
changed the way agencies are required to report program achievements. While MSHA M/NM
easily adapted to these reporting requirements, the measurement of outcome performance with
regard to enforcement and compliance assistance activities requires modification to call for
significant reductions in fatalities and injuries.




            1
                    OIG report no. 2E-06-620-0002, issued March 22, 2001.

                                                    iv
FINDING B – Proactive Approaches to Enforcement and Compliance Assistance
            Activities Help Prevent Injuries/Fatalities

An unavoidable feature of enforcement/compliance assistance activities performed by MSHA
M/NM is their retrospective nature. When accidents or fatalities occur, M/NM inspectors are
required to engage in a number of activities related to these specific incidents. The OIG realizes
the necessity of reacting to developing situations. However, our analysis suggests that MSHA
M/NM should identify successful features of current programs and revise enforcement and
compliance assistance activities to enhance proactive approaches for preventing injuries and
fatalities.

FINDING C – Characteristics of Enforcement and Compliance Assistance Activities
            Create Substantial Tradeoffs Among Inspectors' Duties

Programs and initiatives developed to improve the safety and health of miners require inspectors
to engage in an increasing number of activities. The amount of time required to perform these
duties creates a series of tradeoffs among the various activities. In addition, we found evidence of
disparities in the inspector resources available per mine on a district basis. While this considers
only one factor that contributes to the distribution and allocation of resources, additional factors
reinforce the conclusion that more careful examination of resource allocation and utilization is
needed to determine the most effective "enforcement and compliance assistance agenda."



 RECOMMENDATIONS

We recommend that MSHA M/NM take the following actions to improve the effectiveness of
enforcement activities designed to improve the safety and health of miners:

1.     Further integrate enforcement and compliance assistance activities by improving
       direction/guidance to district management regarding the implementation and operation of
       programmatic activities in order to promote consistency in program performance and
       management across M/NM districts.

2.     Modify current outcome performance goals, raising them to levels where substantive
       changes in the number of fatalities and NFDL injuries are required to meet the
       performance goal.

3.     Study available data to identify trends in injuries and fatalities and identify possible
       problem areas that can be addressed in a proactive manner.




                                                  v
4.     Carefully study features of current M/NM programs in order to identify program elements
       that are most successful in reducing injuries and fatalities, and utilize these elements to
       revise other enforcement and compliance assistance activities to produce a stronger
       proactive effect.

5.     Study the allocation and distribution of enforcement and compliance assistance resources
       in order to determine what combination of activities will produce the greatest effect on
       mine safety, given that there are inherent tradeoffs among these activities.



 MSHA RESPONSE AND OIG CONCLUSION

In response to the OIG's official draft report, MSHA agreed with the findings and believed that
our recommendations would enhance MSHA's ongoing accident reduction efforts. As a result of
corrective actions planned by MSHA, we consider all five recommendations to be resolved. The
recommendations will be closed after these corrective actions are completed. In addition, MSHA
recommended several wording changes that the Agency felt would enhance the accuracy and
readability of the report. These changes are incorporated in the final report. The Agency's
complete response is found in Appendix C.




                                                vi
                                         BACKGROUND

The Mine Safety and Health Administration (MSHA), in partnership with the American mining
community, works to eliminate fatalities, reduce the frequency and severity of accidents, and
minimize health hazards associated with the mining industry in accordance with the Federal Mine
Safety and Health Act of 1977 (the Mine Act).

As part of a prior evaluation,2 MSHA Metal/Nonmetal provided the Office of Inspector General
(OIG) with data on the performance of enforcement activities. Specifically, MSHA M/NM
provided information that indicated declining completion levels of regular inspections. Because
personal sampling is an integral part of the inspection process, we noted that sampling levels have
experienced decreases in proportion to those observed in regular inspections.

The number of regular inspections to be completed is statutorily mandated in the Mine Act. For
M/NM mines, surface mines must be inspected twice yearly; four yearly inspections are required
for underground mines. MSHA M/NM officials attributed the observed decline in completed
regular inspections to resources; specifically, fewer numbers of inspectors prevented full
performance with regard to regular inspections.

Failure to meet statutory obligations with regard to inspections has been a source of prior
Congressional concern. Three General Accounting Office (GAO) reports from 1985 to 1987
concluded that the shortfall in regular inspections resulted from a number of factors including:
substantial reduction in the number of inspectors; the extent to which inspectors devote time to
other types of inspections or activities; imbalances in the geographic location of inspectors; and
limited emphasis given to conducting required regular inspections.




           2
                   OIG report no. 2E-06-620-0002, issued March 22, 2001.

                                                   1
                         PURPOSE, SCOPE AND METHODOLOGY


 PURPOSE

We conducted a study of the Mine Safety and Health Administration’s enforcement and
compliance assistance activities. This study covered the period from 1983 through 2000 and was
designed to study trends in Metal/Nonmetal mine enforcement and compliance assistance
activities in order to identify possible areas for improvement.

 SCOPE

The scope of this study covered a number of activities as well as a number of years. The period
of time we examined included data from 1983 through 2000. For most of the statistical analyses,
however, we utilized data from the period 1986-2000. This limitation was necessitated by:
(1) Constraints associated with the analysis of time series data; and, (2) Deletion of cases due to
missing data.

The activities covered in this study were drawn from the universe of enforcement and compliance
assistance activities conducted by MSHA M/NM. They included: regular inspections; "non-
regular" inspections; special emphasis programs; Part 50 audits; program in accident reduction;
conference litigation representative initiative; compliance assistance visits; haulage activities;
sampling activities; safety program evaluation and assistance; and at-mine training. While this
does not cover all activities categorized as "enforcement activities," we believe the scope of
activities analyzed in this study is broad enough to effectively characterize MSHA M/NM's
efforts. A list and description of all enforcement and compliance assistance activities performed
by MSHA M/NM are presented in Appendix A.

 METHODOLOGY

To complete the study’s objectives, we used a variety of quantitative and qualitative analytical
methods as well as a review of available documents.

Quantitative Methods

MSHA M/NM provided data regarding enforcement activity for the period of interest. We did
not independently verify the validity of the data provided by the agency; however, M/NM officials
internally checked the data for accuracy and provided the requested information according to
calendar year and MSHA M/NM district. We analyzed all data that was necessary and sufficient
to characterize M/NM enforcement activities and assess their performance.




                                                 2
The techniques utilized to uncover these relationships varied according to purpose. To establish
the existence of significant relationships between variables, we employed Pearson’s Correlation
Coefficient. This statistic indicates the existence of a relationship between two variables, as well
as the direction and intensity of that relationship.

For the purpose of data reduction, we utilized techniques that enable the construction of multi-
variable scales that summarize the information from several related variables into a single
measure. These techniques included reliability analysis, summated rating scale construction,
principal components analysis and factor analysis.

To analyze trends in the data, we used a variety of graphical methods, including scatter plots,
kernel density diagrams, partial regression plots, and locally weighted scatterplot smoothers.
Graphical analysis of trends is advantageous because these techniques rarely rely on the onerous
assumptions of some statistical modeling techniques. Simply put, graphical analyses allow the
data to speak for themselves.

Finally, we developed interactive models of the data based on regression analysis. These models
provide information regarding the linear association between items of interest. Specifically,
regression models provide information regarding the intensity of the relationship and measures of
the model’s explanatory power. Please see Appendix B for more detailed
Technical/Methodological concerns.

Qualitative Methods

We utilized formal and informal discussions with officials from MSHA M/NM headquarters.
These discussions were conducted in person, over the telephone, and through electronic mail.
Additionally, we conducted telephone interviews with MSHA Metal/Nonmetal district managers.

Document Review

We examined a wide range of documents relating to activities undertaken by MSHA M/NM. The
statutory requirements regarding regular inspections are established in the text of the Mine Act
and its amendments. We examined press releases related to various initiatives. We also referred
to three GAO reports (from 1985-1987) that focused on M/NM inspection activity. Additionally,
we examined MSHA’s annual performance plans and budget justifications.

We conducted this study in accordance with the Quality Standards for Inspections published by
the President’s Council on Integrity and Efficiency.




                                                  3
                           FINDINGS AND RECOMMENDATIONS


 FINDING A - Enforcement and Compliance Assistance Activities Require
             Greater Coordination and Planning

Due to statutory requirements set forth in the Federal Mine Safety and Health Act of 1977,
hereafter referred to as "The Mine Act", regular inspections are a central focus of MSHA
M/NM's enforcement activity. However, M/NM engages in more than twenty-five other
enforcement and compliance assistance activities, both statutory and non-statutory. We found
that MSHA M/NM programs require greater integration and coordination in order to fulfill
MSHA's overall "safety mission." MSHA M/NM should improve guidance to district offices
regarding program implementation and operation to enhance consistency in program performance
and management. In addition, the passage of GPRA changed the way agencies are required to
report program achievements. While MSHA M/NM easily adapted to these reporting
requirements, the measurement of outcome performance with regard to enforcement and
compliance assistance activities requires modification to call for significant reductions in fatalities
and injuries.

(1) Inspection Activity is Dependent On Several Factors

Our study of MSHA M/NM activities initially focused on the completion of regular inspections in
both surface and underground mines; three factors contributed to this initial focus. First, GAO
issued three reports in the mid-1980s that specifically note shortfalls in completing regular
inspections. Second, information provided by MSHA M/NM during a previous evaluation
indicated declining regular inspection rates from 1994 to 2000. Third, the Mine Act requires
regular inspections. Surface mines are to be inspected twice yearly; underground mines are to be
inspected four times yearly.

Congress first expressed interest in completion rates for regular inspections in 1985. In a review
of DOL management, GAO noted that MSHA M/NM completed roughly sixty percent of its
mandated regular inspections. This shortfall was attributed to: (1) a substantial reduction in the
number of inspectors; (2) the extent to which inspectors devote time to other activities; (3)
imbalances in the geographic distribution of inspectors; (4) limited emphasis given to conducting
required regular inspections by MSHA M/NM; and (5) the lack of a reporting system comparing
the required, planned, and actual number of inspections.

Follow-up reports in 1986 and 1987 found that MSHA M/NM had implemented GAO
recommendations and improved its completion rate for regular inspections. This improvement
was largely the result of: (1) better use of existing inspector resources; (2) improvements in
MSHA M/NM’s management information system to reflect an accurate mine inventory; and (3)
policy changes prioritizing inspection activities. In addition, GAO added the recommendation that
additional inspectors were needed in four MSHA M/NM districts to prevent inspection shortfalls.
As of March 1987, inspectors had completed one hundred percent of the required mine
inspections.


                                                   4
The number of regular inspections performed yearly are summarized in Figure 1. During the
period of time that GAO was evaluating regular inspection activity, regular inspections were
increasing each year. However, regular inspections peaked in 1986 and have declined slowly but
consistently since then. Declining numbers of regular inspections do not, however, adequately or
completely represent several important trends in inspection activity.


                                            Figure 1.
                                  Regular Inspections, 1983-2000
                                   20000




                                   15000




                                   10000




                                    5000
                                           1983 1985 1987   1989 1991 1993 1995 1997   1999
                                                                  Year




First, despite declines in regular inspections, MSHA M/NM is increasing total inspection activity
(all inspections, including follow-ups, special inspections, investigations, etc.). Total inspection
activity has increased from 24,450 "inspection events" in 1983 to 31,156 in 2000, an increase of
21.5%. In addition, the average amount of total inspection activity from 1983 to 2000 is 32,500
events. This is demonstrated graphically in Figure 2. Simply put, MSHA M/NM inspectors are
currently completing (on average) more inspection activity than they were fifteen years ago.




                                                        Figure 2.
                                       Total Inspection Activity, 1983-2000
                         45000

                         40000

                         35000

                         30000

                         25000

                         20000

                         15000

                         10000
                                 1983 1985 1987 1989 1991 1993 1995 1997 1999




                                                              5
Additionally, the number of regular inspections completed is partially dependent on the number of
mines that must be inspected. Figure 3 demonstrates, however, that no clear pattern or trend
exists for the entire time frame considered. From 1992 to 1995, both the number of regular
inspections and the number of mines decrease. Beginning in 1997, regular inspections have fallen
somewhat while the number of mine operations have increased.3



                                                  Figure 3.
                              Regular Inspections Compared to Number of Mines
                      20000




                      15000



                      10000




                       5000
                              1983 1985 1987 1989 1991 1993 1995 1997 1999
                                               Mines            Inspections




Interviews with MSHA M/NM district managers reinforce the statistical analysis. A number of
managers reported that increases in the number of mine operations have a significant impact on
the regular inspection completion rate. For some districts, weather prevents the completion of
regular inspections on a year-round basis; since inspections can only be conducted during specific
times of year, increases in the number of mines severely taxes inspector time.

Additionally, district managers feel that the number of small mine operations has been rising in
large part due to the TEA-21 transportation legislation.4 These small mine operations are often
portable in nature, making it difficult to conduct regular inspections; this difficulty is increased
with larger numbers of operations. One district manager reported that the increase in mine

            3
                      The decline in the number of regular inspections is difficult to determine in Figure 3,
   due to the overall scale. In 1997, the number of completed regular inspections was 15,141; in 1998,
   15,075; in 1999, 15,067; and in 2000, 13,516.
            4
                      TEA-21 stands for the Transportation Equity Act for the 21st Century (P.L. 105-178).
   The Surface Transportation Program portion of this legislation authorizes (from FY1998-FY2003) over
   six billion dollars for road and highway construction projects nationwide. The number of road
   construction projects made possible by TEA-21 has significantly increased the demand for crushed stone
   and gravel, thereby increasing the number of mine operations, particularly small operations (under 20
   employees).

                                                         6
operations requires roughly two additional inspectors per year, just to keep pace. From this, we
can conclude that part of the decline in the regular inspection completion rate is due to growth in
the number of mine operations.

A final comparison appropriate to the completion of regular inspections is the relationship
between the number of inspectors and the number of inspections. The data analysis demonstrates
that the number of completed regular inspections depends partially on the size of the inspectorate.
Holding other factors constant (such as the number of mines, the MSHA M/NM district, amount
of time spent on other compliance assistance activities) each additional inspector added
corresponds to an additional 19.288 completed regular inspections yearly.

While there is a positive association between regular inspections and the size of the inspectorate,
over the past fifteen years the number of inspectors has declined over 20%, from a high of 365 in
1988, to 285 in 2000. The effect of this trend is exhibited in the data. For example, in 1989 the
size of the inspectorate was 360 and 18,681 regular inspections were conducted; in 2000, the size
of the inspectorate was 285 and 13,516 regular inspections were conducted.

Overall, conclusions regarding regular inspection activity must account for a number of other
influential factors. Analyzing regular inspections in isolation from trends in the number of
inspectors and mine operations could lead to misleading conclusions regarding inspection
activities. While a drop off in regular inspections exists in recent years, we should not
overestimate the impact of this drop, especially when accounting for growth in the number of
mine operations and the reduction in the size of the inspectorate. In addition to regular
inspections, MSHA M/NM performs a number of other activities that are classified as
enforcement and compliance assistance activities.

(2) Other Activities Broaden MSHA M/NM's Range of Responsibilities

While regular inspections are the most recognized enforcement activity performed by MSHA
M/NM, over twenty classes of activity are categorized as enforcement (versus support) activities.
These classes include: other, non-regular inspections such as compliance follow-ups, hazard
complaint inspections, discrimination investigations, lost-time injury audits, and special initiatives.
A full list of all enforcement and compliance assistance activities and their definitions is included
in Appendix A.

Our analysis confirmed that these additional activities, while not as recognized as regular
inspections, do consume significant amounts of time. Our study finds that inspection activities
(especially regular inspections) cannot be analyzed in isolation from other types of activities
performed by MSHA M/NM inspectors. Inspectors have available a finite number of hours
during which to accomplish their enforcement/compliance assistance objectives.




                                                   7
Documentation provided by MSHA M/NM indicates that a number of these other activities and
initiatives arose in response to increases in specific types of injuries and fatalities at Metal and
Nonmetal mines (e.g., the Stay Out - Stay Alive safety campaign precipitated by accidents related
to children and adults venturing onto active and abandoned mine property). This is especially true
for safety-related activities and haulage training. Inspectors have increasingly spent time
performing duties related to safety and haulage training since 1985. For example, the amount of
time spent on compliance assistance visits has increased 38.3% in the period from 1986-2000. In
contrast, regular inspections decreased by 31.3% during this period.

Other enforcement and compliance assistance activities have tapered off with regard to the
amount of time spent by inspectors in performing them. Safety program evaluation and
assistance and the program in accident reduction have fallen 95.1% and 66.9%, respectively.
Nevertheless, the other enforcement activities contribute to the diversity of M/NM
enforcement/compliance assistance efforts. In addition, these other enforcement activities cover a
broad range of health and safety issues and are targeted to prevent injuries and fatalities. As such,
these activities should not be underestimated with respect to their importance to the overall safety
mission of MSHA.

(3) Integration and Coordination of Program Activities Require Significant Improvement

Part of the diversity evident in MSHA M/NM's enforcement and compliance assistance activities
results from the nature of the programs; many activities were developed specifically to address
particular problems in the M/NM mining industry. Other programmatic activities are required by
statute. However, all enforcement and compliance assistance activities should work toward
achieving the overall "safety mission" of MSHA M/NM. Simply put, an integrated and
coordinated program of enforcement and compliance activities plays a positive role in fulfilling
this "safety mission."

To examine the integration and coordination of enforcement and compliance assistance activities,
our analysis tested how much these activities have in common. For this study, we were
particularly interested in examining macro-level connections between programs. As a result, we
analyzed aggregate data on enforcement and compliance assistance activities. While this
approach to the analysis may obscure features such as program integration within individual
MSHA M/NM districts, we can effectively study broad patterns that apply to all M/NM districts.

Using a technique known as factor analysis, we are able to determine the pattern of structural
relationships among a set of enforcement and compliance assistance activities. This type of
analysis groups together activities based on the amount they have in common. The fewer groups
that define the relationships between enforcement and compliance activities, the greater their
integration. The data are best explained by four groups (see Appendix B). These results indicate
that structural relationships do exist among some program elements. However, the number of
groups that define these relationships indicate room for improvement in integrating program
activities.



                                                 8
The integration of programmatic activities was also addressed in interviews with MSHA M/NM
district managers. MSHA M/NM district managers feel there are problems in moving from
"program intent" to practical implementation. Current enforcement and compliance assistance
activities are not viewed (by M/NM district managers) as highly integrated. That is, current
guidance does not promote continuity among the entire set of enforcement and compliance
assistance activities. In general, district managers believed that improved direction and guidance
would enhance the quality of programs and produce consistent results across MSHA M/NM
districts.

(4) Measures of Outcome Program Performance Do Not Require Significant Reductions
    In Injuries and Fatalities

The passage of the Government Performance and Results Act (GPRA) in 1994 fundamentally
changed the reporting requirements of enforcement and compliance assistance activities.
Effectively, changes brought about by GPRA have meant that performance measurement of
MSHA M/NM enforcement and compliance assistance activities must focus on what the
programs can accomplish in terms of miner safety and health. However, current performance
measures do not require significant reductions in injuries or fatalities in order to achieve or exceed
program goals.

Provisions of GPRA require outcome-based performance measures, as opposed to output-based
performance measures. The nature of MSHA's activities required the agency to address program
outcomes (i.e., miner safety and health) from its inception; as a result, MSHA M/NM was able to
easily alter its performance reporting. Compliance with GPRA performance standards required
MSHA M/NM to report performance in terms of the health and safety of miners, rather than
regular inspection completion ratios. As demonstrated by The Budget of the United States
(President’s request, FY 1997 – FY 2002), the program statistics reported to Congress changed
in 1995 from the number of Metal/Nonmetal mine inspections to fatality and non-fatal days lost
injury rates in Metal/Nonmetal mines.

Further evidence appears in MSHA M/NM budget requests. For FY 1995, the request stated that
"major emphasis will be placed on required regular inspections." By FY 1997, the request
emphasized that "...the enforcement strategy of M/NM will be an integrated approach...this
includes not only enforcement activities but also education and training and compliance
assistance." This orientation in budget justification clearly indicates MSHA M/NM's commitment
to outcome performance.

In addition, M/NM district managers believe that a substantial effort has been made to shift
program emphasis toward compliance assistance activities. Several district managers believe that
M/NM policies and senior officials have encouraged such a shift over the past five or six years.
The average amount of time inspectors now spend on activities other than regular inspections is
close to 60%, based on comments from district managers. Data provided by




                                                  9
 M/NM officials indicate that overall, 57% of inspector time is spent on activities other than
regular inspections (including administrative duties, leave, and training). The data also shows
that, of the time devoted to enforcement and compliance assistance activities, activities other than
regular inspections comprise only 36% of an inspector's time.

The development and implementation of new MSHA M/NM programs reinforce this orientation
toward outcome performance. The former Assistant Secretary of Labor for Mine Safety and
Health oversaw the implementation of initiatives geared toward improving safety for miners. For
example, in response to a rise in fatal accidents in 1997, MSHA M/NM engaged in activities such
as special safety meetings, technical surveys and other activities focused on accident prevention in
metal and non-metal mines.

The emphasis on programs specifically targeted to reduce fatalities and non-fatal injuries is
particularly evident in the data on enforcement and compliance assistance activity. Inspection of
these trends demonstrates that existing programs experienced peak levels (in terms of inspector
time spent performing the activity) in the years immediately following GPRA implementation.
Haulage training and the program in accident reduction both experienced peak levels from 1995-
1997 and the Program in Accident Reduction experienced a peak in 1994. In addition, a number
of new initiatives were enacted during this period. The conference litigation representative
initiative, which allows MSHA M/NM mediators to act in place of solicitors and streamline the
appeals process for mine citations, is an exemplar of this type of program development.

In addition to the former Assistant Secretary’s commitment to miner safety and health, the current
Assistant Secretary has expressed a similar commitment, acknowledging that MSHA will likely
focus more energy on assisting and educating employers. Enforcement would remain a
fundamentally important role, but the Assistant Secretary indicated a lack of satisfaction with
some regulatory requirements. In remarks in the Bureau of National Affairs (BNA) Daily Labor
Report, Mr. Lauriski stated that new regulations would not be promulgated just for the sake of
issuing regulations. There must be a demonstrated need for new regulations. Clearly, the
statements of the new Assistant Secretary as well as the number of health and safety programs
established or revitalized by the former Assistant Secretary indicate the commitment of MSHA
M/NM management to the public policy orientation brought about by the implementation of the
Government Performance and Results Act.

Despite the success in shifting policy orientation, MSHA M/NM must do more regarding the
measurement of program outcomes. The annual performance plan for the Department of Labor
defines the outcome goal for MSHA M/NM as a reduction in fatalities below the average of the
previous five years. While this is an acceptable outcome goal, after reviewing the data provided
by MSHA M/NM, we feel that a more challenging outcome goal should be put in place. Using a
“five-year" rolling average as a baseline for improvement produces a situation where a reduction
by one death will meet the goal. A reduction of this magnitude (while important) is not
statistically significant. MSHA M/NM officials informed us that efforts are currently under way
to revise the performance measures for injury/fatality reduction.



                                                 10
Conclusion

While MSHA M/NM enforcement activities have been successful in improving the safety and
health of miners, characteristics of enforcement and compliance assistance activities contribute to
several problems. Currently, a lack of program integration hinders the ability of M/NM to
effectively fulfill the "safety mission" of MSHA. Further, consistency in program implementation
and management is hampered by shortcomings in the guidance provided to district management.
Finally, while MSHA M/NM easily adapted to GPRA reporting requirements, the measures of
outcome performance themselves do not require significant reductions in injuries and fatalities.

    RECOMMENDATIONS

    We recommend that MSHA M/NM:

    1.    Further integrate enforcement and compliance assistance activities by improving
          direction/guidance to district management regarding the implementation and
          operation of programmatic activities in order to promote consistency in program
          performance and management across M/NM districts.

    2.    Modify current outcome performance goals, raising them to levels where
          significant changes in the number of fatalities and NFDL injuries are required to
          meet the performance goal.

MSHA's Response to Finding A (4)

•        Suggested change: “The average amount of time inspectors now spend on activities
         other than regular inspections is close to 60%, based on comments from district
         managers. Data provided by M/NM officials indicate that overall, 57% of inspector time
         is spent on activities other than regular inspections (including administrative duties,
         leave, and training). The data also shows that, of the time devoted to enforcement and
         compliance assistance activities, activities other than regular inspections comprise only
         36% of an inspector's time.”

•        Suggested change: “...GPRA implementation. Haulage training and the Program in
         Accident Reduction both experienced peak levels from 1995-1997 and the Program in
         Accident Reduction experienced a peak in 1994. In addition...”

•        Suggested change: “...but the Assistant Secretary indicated a lack of satisfaction with
         some regulatory requirements.”

•        Suggested change: “Mr. Lauriski stated that new regulations would not be promulgated
         just for the sake of issuing regulations. There must be a demonstrated need for new
         regulations.”



                                                 11
OIG's Conclusion

We agree that the recommended changes enhance the accuracy and readability of the report. All
changes have been incorporated in the body of the final report.

MSHA's Response to Recommendation 1

“In June (2001), M/NM requested input from its district managers regarding their ideas on
improving consistency. When we finish our review of those ideas, a plan will be developed and
implemented nationwide.”

OIG's Conclusion

We concur with the proposed corrective actions and consider this recommendation resolved. The
recommendation will be closed after a detailed action plan and timetable for implementation is
submitted to this office.

MSHA's Response to Recommendation 2

“In May (2001), I directed MSHA to develop new performance goals with more meaningful
outcomes regarding injuries and fatalities. MSHA finalized those goals into its Strategic Plan
on September 6. These new goals are now effective and require the Agency to assist the mining
community in:

a. Reducing mining fatalities 15% per year below the projected baseline; and
b. Reducing the nonfatal incidence rate 50% over a four-year period (FY 2001 - FY 2004).”

OIG's Conclusion

We consider this recommendation resolved and will be closed pending receipt of the updated
Strategic Plan (dated September 6, 2001).




                                              12
 Finding B - Proactive Approaches to Enforcement and Compliance Assistance
             Activities Help Prevent Injuries/Fatalities

An unavoidable feature of many activities performed by MSHA M/NM is their retrospective
nature. When accidents or fatalities occur, MSHA M/NM inspectors are required to engage in a
number of activities related to these specific incidents. The OIG realizes the necessity of reacting
to developing situations. However, analysis suggests that MSHA M/NM should identify
successful features of current programs and revise enforcement and compliance assistance
activities to enhance proactive approaches for preventing injuries and fatalities.

Analysis of the data provided by MSHA M/NM demonstrates that a majority of enforcement and
compliance assistance activities are reactive in nature. That is, increases in the number of injuries
and fatalities change the amount of time devoted to these programmatic activities. The
enforcement activities which exhibit the greatest sensitivity to injuries/fatalities are: Safety
Program Evaluation and Assistance, Part 50 Audits, Personal Sampling, and Haulage activities.
With the exception of Part 50 Audits, each of these activities decreases (in amount of time spent)
as injuries and/or fatalities increase.

Interviews with M/NM district managers corroborate the finding that a significant percentage of
MSHA M/NM activity is reactive rather than proactive. A number of remedies were suggested by
managers, ranging from more careful identification of trends in data to greater emphasis on
regular inspections. However, each manager felt that more emphasis should be given to proactive
solutions.

This data analysis does not address related issues such as why particular programs are performed.
For example, MSHA M/NM officials indicated that the selection criteria for certain programs are
explicitly reactive in that they are based on a mine's injury experience. Additionally, statutes
dictate when some programmatic activities must be performed. As a result, these statutory
requirements often contribute to the reactive nature of enforcement and compliance assistance
activities and inhibit MSHA M/NM’s ability to implement programs with flexibility. Further, due
to the limited number of years of data available for study, we can make no assessment of the long-
term effects of enforcement and compliance assistance activities. Nevertheless, we believe the
findings from the data analysis indicate that MSHA M/NM should study current enforcement and
compliance assistance programs in order to identify elements that are most successful in
preventing injuries and fatalities, rather than reacting to them.




                                                 13
 RECOMMENDATIONS

 We recommend that MSHA M/NM:

 3.     Study available data to identify trends in injuries and fatalities and identify
        possible problem areas that can be addressed in a proactive manner.

 4.     Carefully study features of current M/NM programs in order to identify program
        elements that are most successful in reducing injuries and fatalities, and utilize
        these elements to revise other enforcement and compliance assistance activities to
        produce a stronger proactive effect.

MSHA's Response to Recommendation 3

“Also in May (2001), I directed that a study be conducted to develop benchmarks and indicators
to identify trends and problem areas. Once the study is completed, MSHA inspectors will be
able to provide proactively safety and health information as part of their regulat inspections to
miners and mine operators. This information will assist the mining community in preventing
future accidents, injuries, and illnesses. The study is being conducted with the assistance of
MSHA's Program Evaluation and Information Resources office.”

OIG's Conclusion

We concur with the proposed corrective actions and consider this recommendation resolved. The
recommendation will be closed upon receipt of findings from MSHA's benchmarks and indicators
study.

MSHA's Response to Recommendation 4

“In June (2001), MSHA, in partnership with its stakeholders, began a series of nation-wide
meetings seeking input regarding best practices that had been shown to reduce accidents,
injuries, and illnesses. As part of this process, M/NM also established a team to identify ways to
enhance its past efforts to reduce these occurrences. After the meetings have been completed,
MSHA and the mining community will review these ideas, then develop and implement a plan
which will allow inspectors to provide more up-front, proactive assistance to the mining
community so that they can assist operators and miners in reducing accidents, injuries, and
illnesses.”

OIG's Conclusion

We concur with the proposed corrective actions and consider this recommendation resolved. The
recommendation will be closed upon receipt of a final list of best practices and MSHA's plan to
provide more proactive assistance to the mining community. In that regard, please submit to



                                                14
this office information regarding progess of the MSHA team in identifying ways to enhance past
efforts, a detailed action plan and a timeline for implementation of the plan.




                                              15
 Finding C - Characteristics of Enforcement and Compliance Assistance Activities Create
             Substantial Tradeoffs Among Inspectors' Duties

Programs and initiatives developed to improve the safety and health of miners require inspectors
to engage in an increasing number of activities. The amount of time required to perform these
duties creates a series of tradeoffs among the various activities. In addition, we found evidence of
disparities in the inspector resources available per mine on a district basis. While this considers
only one factor that contributes to the distribution and allocation of resources, additional factors
reinforce the conclusion that more careful examination of resource allocation and utilization is
needed to determine the most effective "enforcement agenda."

The passage of GPRA created a climate that encourages reducing threats to miner health and
safety. Based on these changes, each inspector must engage in an increasing number of activities.
Since each inspector is available to work only a certain number of hours per year, inspectors are
by definition a finite resource. As such, each inspector can only undertake a certain number of
activities.

MSHA M/NM inspectors currently engage in twenty-six different types of enforcement and
compliance assistance activities, including regular mine inspections. Data provided by MSHA
M/NM indicates that these activities are in a constant state of flux. Where haulage training may
be stressed in a particular district, compliance assistance visits may be stressed in another.
Further, these activities vary from year to year. Analysis of data on enforcement and compliance
assistance activities demonstrates that relationships between various types of enforcement and
compliance activity are relatively complex. In addition, our analysis found evidence that among
enforcement and compliance assistance activities, significant tradeoffs exist with respect to the
amount of time devoted to various programs. In other words, performance of certain activities
tends to correspond with decreases in the amount of time spent on other activities.

This complexity was also evident from conversations with MSHA M/NM district managers.
Among the district managers, no consensus exists regarding the most and least effective activities.
Some felt compliance-oriented activities such as compliance assistance visits were very effective;
others believe that regular inspections are the most effective. No district manager felt that there
was a "least effective" program. Rather, they believe all enforcement and compliance assistance
activities have merit; the difficulty lies in allocating time for the activities to be completed.

Given that tradeoffs exist among the various activities and inspectors have a finite amount of time
to complete their required duties, MSHA M/NM must engage in careful planning to assure
effective utilization of inspector time. The data analysis indicates that time cannot be devoted to
all activities equally. Therefore, MSHA M/NM must strive to implement an "enforcement and
compliance assistance agenda" (as discussed in Finding A, Recommendation 1) that provides the
greatest benefit in the limited time available.




                                                16
In addition to the direct relationships involved in these enforcement and compliance assistance
activities, a number of other factors affect the amount of time that can be spent performing these
activities. One factor is the growth in the number of mine operations; another is the steady
decrease in the size of the inspectorate. Figure 4 presents this material in a slightly different
manner. This graphic charts the number of mines per inspector from 1986 through 2000. Over
the past fifteen years, the number of mines per inspector has increased significantly, from an
average of 37.72 in 1986 to 45.82 in 1998, an increase of 17.68%.

                                                Figure 4.
                                      Mines per Inspector, 1986-2000
                   50


                   40


                   30


                   20


                   10


                    0
                        1986   1988      1990    1992    1994   1996   1998   2000



One effect produced by the increasing number of mines and decreasing number of inspectors is a
reduction in the overall inspection resources available per mine. In addition, the distribution of
resources may be significantly different in the various MSHA M/NM districts. The most
reasonable method to test for this possibility is to examine the ratio of mines to inspectors in each
of the districts, and note any statistically significant differences. Figure 5 demonstrates the
average number of mines per inspector in each of the districts from 1986 to 2000.




                                       [Intentionally Left Blank]




                                                    17
                                                                                 Figure 5.

                                                            Mines/Inspectors Ratio by MSHA District
                                                       50




                      Average Mines/Inspectors Ratio
                                                       40




                                                       30




                                                       20
                                            North Central      Northeast   South Central   Southeast   Rocky Mountain   West


                                                                                MSHA District


The most notable feature of this graph is the higher ratio that exists for the North Central and
Northeast districts. The North Central and Northeast districts differs significantly from the South
Central, Southeastern and Western districts. Based on this line of reasoning, the growth of mines
and/or decreases in the size of the inspectorate produced a higher ratio in these two districts.
However, this analysis presents only one aspect of the distribution of inspector resources. In
order to address concerns related to distribution of inspectors, MSHA M/NM implemented the
Volunteer Transfer Program in 1999. This program allows for the movement of inspectors from
an overstaffed office to an understaffed one.

MSHA M/NM officials informed the OIG that a number of other factors (such as mine size,
geographic clustering, and travel times) must be considered with respect to allocation and
distribution of available resources. These comments reinforce the observation regarding the
complexity of resource allocation. The differences in resource availability among the MSHA
M/NM districts and the tradeoffs among various enforcement and compliance assistance activities
we observed suggest that a careful examination of resource allocation and utilization is needed to
determine the most effective "enforcement and compliance assistance agenda."

 RECOMMENDATION

 We recommend that MSHA M/NM:

 5.     Study the allocation and distribution of enforcement and compliance assistance
        resources in order to determine what combination of activities will produce the
        greatest effect on mine safety, given that there are inherent tradeoffs among these
        activities.




                                                                                 18
MSHA's Response to Recommendation 5

“MSHA is in the process of reviewing appropriate data to determine how its resources should be
used to achieve maximum safety and health benefits. Violation rates, incident rates, and other
appropriate data are being considered to identify problem mines where the agency should focus
its resources to reduce fatalities, injuries, and illnesses.”

OIG's Conclusion

We concur with the proposed corrective actions and consider this recommendation resolved. The
recommendation will be closed upon receipt of the results of MSHA's review of resource data.




                                              19
                 Appendix A
Enforcement and Compliance Assistance Activity
            Codes and Descriptions




                      20
                               Appendix A
                 Enforcement and Compliance Assistance
                     Activity Codes and Descriptions

CODE   ACRONYM      ACTIVITY                              DEFINITION
 01      REG          Regular         The complete health and safety inspection in its
                     Inspection       entirety (Section 103(a)).


 02      CFI        Compliance        An inspection conducted for the purpose of
                    Follow-Up         ascertaining the abatement status of previously cited
                                      violations.

 05      OAI       Operating Area     An inspection of a mine that is not in full production
                     Inspection       capacity, e.g., a mine with a skeleton crew performing
                                      only maintenance operations
 07      DOE         Attempted        A mine visit specifically for the purpose of
                     Inspection       conducting an enforcement activity, but the activity
                  (Denial of Entry)   could not be accomplished because of direct or
                                      indirect denial of entry.
 09     HAZ-V      Verbal Hazard      An inspection or investigation resulting from a hazard
                    Complaint         complaint received in an MSHA M/NM office (in
                                      person or via telephone) and not reduced to writing,
                                      including imminent danger, violation of safety and
                                      health standards, or non-compliance with the Mine
                                      Act.
 10      ATT         Attempted        A mine visit specifically for the purpose of
                     Inspection       conducting an enforcement activity, but the activity
                                      could not be accomplished because the mine was not
                                      operating or for other reasons.
 11      WVI      Willful Violation   The actual conduct of an investigation of a claim that
                   Investigation      an operator either knowingly or willfully violated a
                                      mandatory health and safety standard or knowingly
                                      and/or willfully violated, failed or refused to comply
                                      with any order issued under Section 104, Section 107,
                                      or any order incorporated in a decision under the
                                      Mine Act.

 12      GAS       Gas Inspection     An inspection conducted pursuant to Section 103(i).




                                      21
13   HAZ-W       Hazard       An inspection or investigation conducted under
 .             Complaint      Section 103(g)(1) and 103(g)(2) as the result of a
               Inspection     written complaint of the existence of a violation of the
                              Mine Act or a mandatory health or safety standard or
                              existence of imminent danger.

14    DIS    Discrimination   The actual conduct of an investigation emanating
               Complaint      from a complaint filed by a miner or applicant for
              Investigation   employment, or representative of miners who believes
                              he/she has been discharged, discriminated against or
                              interfered with in the exercise of statutory rights
                              under the Mine Act.

15    SEP       Special       Code reserved for future enforcement action(s).
               Emphasis
               Programs

16   AUDIT   Part 50 Audit    A special audit of mine records conducted to
                              determine accuracy of records and compliance with
                              Part 50 reporting requirements (injury reporting).
17   OCAA       Other         An activity whose primary purpose is not the citation
              Compliance      of observed violations of standards. This activity
              Assistance      encompasses a wide variety of mine visits, including
               Activities     but not restricted to: technical assistance activities;
                              special conferences or meetings with mine
                              management/labor to discuss or resolve health or
                              safety problems; PAR-type activities at mines not
                              officially under the Program in Accident Reduction.
                              Activity must be at the mine property in order to use
                              this code.
18    PAR     Program in      A metal and nonmetal program aimed at injury
               Accident       reduction in selected mines with high accident and
              Reduction       injury levels. This activity includes accident
                              reduction surveys conducted by teams.
19   MOD      Petition for    Investigation at a mine for the purpose of evaluating a
             Modification     petition for modification of a mandatory safety
             Investigation    standard, Section 101(c).


20   ACR     Alternate Case   Activities involving Alternative Case Resolution
              Resolution      Initiative (renamed the Conference Litigation
                              Representative (CLR) initiative).

21   RESCU   Mine Rescue -    A trip to a mine to engage in a mine rescue or
              Recovery        recovery operation. No citation or order should be
                              issued against this type of activity.



                              22
30   ACCID      Accident        A mine visit to investigate accidents, with or without
              Investigation     injuries

33    SEA        Special        An enforcement activity for a specialized purpose that
               Enforcement      may be unique for each district. An example of this
                 Activity       activity is Coal mine inspections by Metal and
                                Nonmetal inspectors in the Western District.

35    LIT       Litigation      All activities related to and connected with legal
                                proceedings including preparation, travel and court
                                time.

37   MISC     Miscellaneous     Enforcement activities not specifically covered by
               Inspection       other codes where the issuance of citations/orders
                                might be involved. Examples of such activities are:
                                special inspections which, by definition, cannot be
                                reported as regular inspections, such as electrical,
                                radiation, shaft, hoist or tailings pond inspections; a
                                special investigation to determine if there was actually
                                a violation after a citation/order was issued; a special
                                investigation to determine if a condition or practice is
                                or is not a violation; and, a special visit to investigate
                                the failure of an operator to file a legal identity report.
40    SE 1       Special        An enforcement activity for a specialized purpose that
       .      Enforcement 1     may be unique for each district


41    CAV     Compliance        A visit to a new mine not yet producing to point out
             Assistance Visit   potential violations without monetary civil penalties
                                being proposed.
42    SE 2       Special        An enforcement activity for a specialized purpose that
              Enforcement 2     may be unique for each district


43   HAUL        Haulage        Code reserved for future compliance assistance
                Inspection      activity(s).

44    SE 3       Special        An enforcement activity for a specialized purpose that
              Enforcement 3     may be unique for each district.


45   MHAUL       Haulage        Code reserved for future compliance assistance
             Training at Mine   activity(s).
                   Site
46    SE 4       Special        An enforcement activity for a specialized purpose that
              Enforcement 4     may be unique for each district.




                                23
     47           FRP            Fatality      Fatality emphasis activity(s).
                                Reduction
                                Program

     48           SE 5           Special       An enforcement activity for a specialized purpose that
                              Enforcement 5    may be unique for each district.


     81          EVAL        Safety Program    Advising a specific mine operator on developing or
                              Evaluation &     improving a safety program, including training plans,
                               Assistance      evaluating the effectiveness of an existing safety
                                               program, and assisting with accident reduction
                                               programs. Includes work done at PAR mines, if not
                                               directly related to PAR.

     82         MTRNG           At Mine        Instructor training and monitoring instructors and
                                Training       conducting training at a mine site.
                                Activities



Enforcement codes specifically mandated by the Mine Act - 01, 05, 09, 11, 12, 13, 14, 19, 21, 30

Enforcement codes falling under the umbrella of the Mine Act or ones used as the result of an
activity specifically mandated by the Mine Act - 02, 07, 10, 15, 16, 17, 33, 37

Compliance assistance codes falling under the umbrella of the Mine Act - 18, 40, 41, 42, 43, 44,
45, 46, 47, 48, 81, 82
Other codes used as the result of an activity taken/which might be taken by the Agency under the
Mine Act - 20, 35




                                               24
          Appendix B
Technical/Methodological Issues




               25
                                            Appendix B
                              Technical and Methodological Issues


1. Linear regression models were utilized in order to determine the nature of any linear
associations between the number of completed regular inspections and a series of independent
variables. The independent variables we used in our analysis included: number of inspectors;
number of fatalities; number of injuries; hours of at-mine training; hours of compliance assistance
visits; hours of program in accident reduction; hours of special emphasis programs; hours of
haulage training activities; number of personal samples drawn; MSHA M/NM district location of
mine operations; hours of Part 50 Audit; hours of training; hours of alternate case resolution.


Based on the information available, we developed a series of nested regression models to assess
the contribution of additional variables. This methodology provides a means for eliminating
unnecessary variables from the analysis and avoiding specification error. Our analysis found the
following model to be the best fitting linear model.


Coefficients
                        Variable              Unstandardized               Standardized     t      Sig.
                                                Coefficients              Coefficients
                                                     B         Std. Error    Beta
         (Constant)                                   268.016 966.175                     .277 .782
         # Inspectors                                  19.288      6.058           .293 3.184 .002
         Metal/Nonmetal Fatalities                       7.881     5.608           .094 1.405 .164
         At-Mine Training                         -8.845E-02        .141          -.038 -.626 .533
         Compliance Assistance Visit               8.441E-02        .327           .019 .258 .797
         CLR                                            -4.673     2.871          -.142 -1.628 .108
         Program in Accident Reduction                   4.804     1.699           .183 2.828 .006
         (PAR)
         Safety Program Evaluation                        .905      .981           .076     .922   .359
         Injuries                                   1.838E-02       .198           .010     .093   .926
         Mills                                           9.593     4.595           .488    2.088   .040
         Underground Mines                              -1.537     3.392          -.094    -.453   .652
         Strip Mines                                      .253      .363           .153     .698   .488
         Sampling                                  -1.508E-02       .007          -.182   -2.122   .037
         Haulage                                   -9.162E-02       .154          -.039    -.597   .553
         Northeast District                           308.054    162.895           .209    1.891   .063
         South Central District                      -136.747    339.003          -.093    -.403   .688
         Southeast District                            -50.780   436.607          -.035    -.116   .908
         Rocky Mountain District                       -91.695   269.297          -.062    -.340   .734
         Western District                            -496.949    342.913          -.338   -1.449   .152
a Dependent Variable: Regular Inspections - North Central




                                                 26
ANOVA
                             Sum of Squares           df    Mean Square              F       Sig.
           Regression         21726179.130            18    1207009.952         16.035      .000
           Residual            5344254.526            71      75271.191
           Total              27070433.656            89

Model Summary
         R    R Squared Adjusted R Squared Std. Error of the Estimate
         .896      .803                .753                 274.35596



Other models which provided reported results dealt with fatalities and injuries. The results of
these models are provided below.



Coefficients
                  Variable          Unstandardized             Standardized     t        Sig.
                                      Coefficients              Coefficients
                                           B         Std. Error    Beta
         (Constant)                       -1483.868 343.517                     -4.320     .000
         # Inspectors                         -1.459      2.265         -.071    -.644     .521
         Training hours                  -2.233E-03        .004         -.042    -.503     .616
         Mills                                 -.786      1.816         -.128    -.433     .666
         Underground                           -.294      1.356         -.058    -.217     .829
         Strip                                  .489       .130          .949    3.761     .000
         Northeast District                 217.113     58.830           .473    3.691     .000
         South Central District             440.103 129.100              .958    3.409     .001
         Southeast District                 585.698 163.752            1.275     3.577     .001
         Rocky Mountain District            112.614     96.805           .245    1.163     .248
         Western District                   530.385 127.749            1.155     4.152     .000
         Sampling Scale                   9.178E-03        .003          .355    3.368     .001
         Haulage                          2.176E-02        .061          .029     .357     .722
         Metal/Nonmetal Fatalities            -1.580      2.175         -.060    -.727     .470
         Injuries                               .521       .074          .891    7.063     .000
a Dependent Variable: Part 50 Audits - NC




                                                 27
Coefficients
                  Variable           Unstandardized             Standardized       t             Sig.
                                       Coefficients              Coefficients
                                            B         Std. Error    Beta
         (Constant)                          344.474 725.090                         .475          .636
         # Inspectors                          -1.708      4.292         -.061      -.398          .692
         Training hours                  -2.002E-02         .008         -.279     -2.477          .016
         Mills                                  -.763      3.439         -.092      -.222          .825
         Underground                           -2.400      2.551         -.349      -.941          .350
         Strip                                   .109       .268          .157       .407          .685
         Northeast District                 -142.914 119.840             -.230     -1.193          .237
         South Central District              -23.779 262.444             -.038      -.091          .928
         Southeast District                    -2.989 335.149            -.005      -.009          .993
         Rocky Mountain District             254.525 182.419              .410      1.395          .167
         Western District                    -69.339 267.879             -.112      -.259          .796
         Sampling Scale                  -8.514E-03         .005         -.244     -1.564          .122
         Part 50 Audits                   7.787E-02         .218          .058       .357          .722
         Metal/Nonmetal Fatalities              9.019      3.995          .254      2.258          .027
         Injuries                               -.278       .177         -.351     -1.566          .122
a Dependent Variable: HAULAGE


Coefficients
                       Variable                Unstandardized            Standardized        t          Sig.
                                                 Coefficients              Coefficients
                                                      B         Std. Error    Beta
         (Constant)                                 66490.494 12269.47                       5.419       .000
         # Inspectors                                  388.616 85.162               .489     4.563       .000
         Training hours                                   -.660       .155         -.321    -4.246       .000
         Mills                                         228.859 68.373               .966     3.347       .001
         Underground                                  -165.890 47.649              -.844    -3.481       .001
         Strip                                          -19.188      4.868         -.964    -3.942       .000
         Northeast District                         -7023.282 2299.750             -.396    -3.054       .003
         South Central District                    -23471.334 4556.873            -1.323    -5.151       .000
         Southeast District                        -27726.131 5902.013            -1.562    -4.698       .000
         Rocky Mountain District                    -3418.335 3692.366             -.193     -.926       .358
         Western District                          -19757.314 4926.236            -1.113    -4.011       .000
         Regular Inspections                             -4.499      1.580         -.373    -2.848       .006
         Haulage                                         -4.732      2.295         -.165    -2.061       .043
         Part 50 Audits                                  15.234      4.075          .394     3.739       .000
         Metal/Nonmetal Fatalities                    -216.419 79.540              -.213    -2.721       .008
         Injuries                                        -9.428      3.449         -.417    -2.734       .008
a Dependent Variable: Sampling Scale




                                                  28
Coefficients
                       Variable              Unstandardized           Standardized     t       Sig.
                                              Coefficients              Coefficients
                                                   B         Std. Error    Beta
         (Constant)                                   11.188 113.057                    .099    .921
         # Inspectors                                  -.454       .752         -.082 -.604     .548
         Training hours                          -4.472E-04        .001         -.031 -.331     .741
         Mills                                         -.122       .572         -.074 -.213     .832
         Underground                                   1.029       .401          .753 2.567     .012
         Strip                                   -8.413E-03        .042         -.061 -.202     .841
         Northeast District                          -20.054 19.026             -.162 -1.054    .295
         South Central District                      -29.662 41.409             -.240 -.716     .476
         Southeast District                           43.150 52.429              .350   .823    .413
         Rocky Mountain District                     -25.944 28.953             -.210 -.896     .373
         Western District                            -26.565 42.376             -.215 -.627     .533
         Regular Inspections                      1.148E-02        .013          .137   .885    .379
         Sampling Scale                           1.396E-03        .001          .201 1.540     .128
         HAULAGE                                 -1.011E-02        .018         -.051 -.550     .584
         Part 50 Audits                           8.821E-02        .035          .328 2.546     .013
         Metal/Nonmetal Fatalities                      .667       .650          .095 1.026     .308
         Injuries                                -7.180E-02        .028         -.457 -2.545    .013
a Dependent Variable: Safety Program Evaluation and Assistance


In none of the cases were significant interaction effects among independent variables discovered.
Additionally, we found no significant negative consequences resulting from multicollinearity,
abnormal distributional shape, or heteroskedasticity.




                                     [Intentionally left blank]




                                                29
2. For purposes of data reduction, we tested for the existence of a number of multi-item scales
that could be used in further analysis. We found only two such scales; one related to personal
samples, and another related to haulage training activities. We utilized a reliability analysis (test
statistic: Cronbach's á) to make conclusions about the scalability of these items. The results are
provided below.

  R E L I A B I L I T Y           A N A L Y S I S         -     S C A L E      (A L P H A)
                                                                                 N of
Statistics for Scale              Mean        Variance        Std Dev         Variables
                              45847.2857      398746779       19968.6449            3


Item-total Statistics
                 Scale             Scale            Corrected
                 Mean             Variance              Item-           Alpha
               if Item            if Item               Total          if Item
               Deleted            Deleted          Correlation         Deleted


SILICA        37283.1905      279518391.1314            .8925           .9534
NOISE         31463.4286      178891392.5349            .9550           .7390
OTHER         22947.9524       99336279.9817            .9998           .8133


                              Analysis of Variance
Source of Variation        Sum of Sq.             DF          Mean Square          F           Prob.
Between People           16614449144.57           125      132915593.157
Within People            16359505992.00           252      64918674.5714
 Between Measures        13099044614.29             2      6549522307.14         502.1929      .0000
 Residual                3260461377.714           250      13041845.5109
Total                    32973955136.57           377      87464071.9803
      Grand Mean         15282.4286


Alpha =      .9019                Standardized item alpha =            .9692




                                                  30
 R E L I A B I L I T Y        A N A L Y S I S     -    S C A L E     (A L P H A)
                                                                     N of
Statistics for Scale      Mean        Variance         Std Dev      Variables
                        244.4907    418291.355        646.7545        3


Item-total Statistics
                       Scale           Scale          Corrected
                       Mean           Variance          Item-          Alpha
                      if Item          if Item          Total         if Item
                      Deleted          Deleted        Correlation     Deleted


Haulage Insp.         233.8056      410457.4665         .3706          .7004
Haulage Trng.         158.6481      192990.6601         .6769          .0551
Misc. Haulage          96.5278        71550.4011        .6879          .0632


                        Analysis of Variance
Source of Variation     Sum of Sq.        DF           Mean Square     F           Prob.
Between People         14919058.3302      107         139430.4517
Within People          13569308.6667      216         62820.8735
 Between Measures      1020699.5247           2       510349.7623    8.7033        .0002
 Residual              12548609.1420      214         58638.3605
Total                  28488366.9969      323         88199.2786
    Grand Mean         81.4969


Alpha =   .5794               Standardized item alpha =      .7054




                                         31
3. To assess the integration of M/NM enforcement and compliance assistance activities, we
performed a factor analysis on the available enforcement and compliance assistance activity data.
The results demonstrate that there is not a single underlying factor which explains all the common
variance among these items. While this analysis does not dismiss the possibility that some
integration exists (or that other factors mitigate against observing the underlying dimension), the
results do corroborate our assertion that additional effort should be employed toward producing
additional integration among program elements. All variables input into the factor analysis loaded
significantly on at least one factor. As a result, the variables displayed in the rotated factor matrix
were represent all variables considered in the analysis.




Rotated Component Matrix
                                     Variable                  Component
                                                   1           2        3           4
                            At Mine Training                             -.677
                 Compliance Assistance Visit            .488              .412
                                        CLR            -.521    -.457
               Program in Accident Reduction            .846
                  Safety Program Evaluation             .685
                 Special Emphasis Programs                                              .917
                                    Sampling                     .809
                               Part 50 Audits                    .756
                                     Haulage           -.526    -.547
                         Regular Inspections                               .772

Extraction Method: Principal Component Analysis. Rotation Method: Varimax with Kaiser Normalization.
a Rotation converged in 24 iterations.




                                                  32
  Appendix C
Agency Reponse




     33
